Certificate of Service
In compliance with Rule 29.4(a) and 5(c) as modified by the Coronavirus
adaptation, I have mailed 1 copy of this document to the clerk of the court at:
Clerk of the US Supreme Court
1 First Street, N. E.
Washington, DC 20543

3 copies to:
Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, N.W., Room 5616
Washington, DC 20530-0001
I have emailed an electronic copy to the Defendant's counsel at
Emilv.S.Newton@usdoi.aov. and Lowell.Sturgill@usdoi.gov

I declare under penalty of perjury that the foregoing is true and correct. Executed
on
Date: 1/5/2021
John J. Dierlam
5802 Redell Road
Baytown, TX 77521
Phone: 281-424-2266

